                                                                      E-IN-BIA-0098-2002

            United States Department of the Interior
                             Office of Inspector General
                                   Washington, D.C. 20240



                                                                              May 21, 2003

Memorandum

To:        Assistant Secretary for Indian Affairs


Fom:       Roger La Rouche
           Assistant Inspector General for Audits

Subject:   Independent Auditors’ Report on the Bureau of Indian Affairs’ Financial
           Statements for Fiscal Years 2002 and 2001 (Report No. 2003-I-0052)

        We contracted with KPMG LLP (KPMG), an independent certified public
accounting firm, to audit the Bureau of Indian Affairs’ (BIA) financial statements as of
September 30, 2002, and for the year then ended. The contract required that KPMG
conduct its audit in accordance with the Comptroller General of the United States of
America’s Government Auditing Standards, the Office of Management and Budget’s
Bulletin 01-02 Audit Requirements for Federal Financial Statements, and the General
Accounting Office/President’s Council on Integrity and Efficiency’s Financial Audit
Manual.

         In its audit report dated January 21, 2003, except for Note 19, as to which the date
is March 4, 2003 (Attachment), KPMG issued an unqualified opinion on BIA’s financial
statements. KPMG identified nine reportable conditions related to internal controls and
financial operations: (A) information technology systems, (B) financial reporting,
oversight, and organization structure, (C) processing Trust transactions, (D) legal
liabilities, (E) property, plant and equipment, (F) environmental liabilities, (G) intra-
governmental eliminations, (H) unbilled/reimbursable accounts receivable, and (I)
undelivered orders. KPMG considered the first four reportable conditions to be material
weaknesses. With regard to compliance with laws and regulations, KPMG found that
BIA was not in substantial compliance with the three requirements of the Federal
Financial Management Improvement Act of 1996 (FFMIA). Specifically, BIA’s financial
management systems did not substantially comply with federal financial management
systems requirements, federal accounting standards, and the U.S. Standard General
Ledger at the transaction level. KPMG also found BIA to be noncompliant with the Debt
Collection Improvement Act 1996.

        In connection with the contract, we monitored the progress of the audit at key
points, reviewed KPMG’s report and selected related working papers, and inquired of its
representatives. Our review, as differentiated from an audit in accordance with the
Government Audit Standards, was not intended to enable us to express, and we do not
express, an opinion on the BIA’s financial statements, conclusions about the
effectiveness of internal controls, conclusions on whether BIA’s financial management
systems substantially complied with the three requirements of FFMIA, or conclusions on
compliance with laws and regulations. KPMG is responsible for the auditors’ report and
for the conclusions expressed in the report. Our review disclosed no instances where
KPMG did not comply in all material respects with the Government Auditing Standards.

       Management’s response was incorporated into KPMG’s report. Based on the
response, all the recommendations are considered resolved but not implemented. The
recommendations will be referred to the Assistant Secretary for Policy, Management and
Budget for tracking of implementation.

      Section 5(a) of the Inspector General Act (5 U.S.C. App. 3) requires the Office of
Inspector General to list this report in its semiannual report to the Congress.




Attachment
                                                                                          Exhibit I

                                 Bureau of Indian Affairs
                         Summary of the Status of Prior Year Findings
                                    September 30, 2002


Ref                      Condition Area                                 Status

A     Controls over information technology systems         This condition has not been
                                                           corrected and is repeated in
                                                           fiscal year 2002.

B     Controls over financial reporting and oversight      This condition has not been
                                                           fully corrected and is partially
                                                           repeated in fiscal year 2002.

C     Controls over processing Trust transactions          This condition has not been
                                                           fully corrected and is partially
                                                           repeated in fiscal year 2002.

D     Controls over property, plant, and equipment         This condition has not been
                                                           fully corrected and is partially
                                                           repeated in fiscal year 2002.

E     Controls over year-end accruals                      This condition is no longer
                                                           considered a reportable
                                                           condition.

F     Controls over unbilled/reimbursable accounts         This condition has not been
      receivable                                           fully corrected and is partially
                                                           repeated in fiscal year 2002.

G     Controls over Treasury reporting                     This condition was corrected
                                                           in fiscal year 2002.

H     Debt Collection                                      This condition has not been
                                                           corrected and is repeated in
                                                           fiscal year 2002.

 I    FFMIA                                                This condition has not been
                                                           corrected and is repeated in
                                                           fiscal year 2002.
